NO. 20IN THE SUPREME COURT OF THE UNITED STATES
IN RE: FEDERAL BUREAU OF PRISONS’ EXECUTION PROTOCOL CASES
WILLIAM P. BARR, ATTORNEY GENERAL, ET AL.,
Applicants.
V.
ORLANDO CORDIA HALL,
Respondent,
v.
OPPOSITION TO APPLICATION FOR A STAY OR VACATUR OF
THE INJUNCTION ISSUED BY THE UNITED STATES
DISTRICT COURT FOR THE DISTRICT OF COLUMBIA

*Robert C. Owen
Law Office of Robert C. Owen,
LLC
53 West Jackson Blvd., Suite 1056
Chicago, IL 60604
(512) 577-8329 voice
robowenlaw@gmail.com

Amy Lentz
Steptoe & Johnson LLP
1300 Connecticut Avenue NW
Washington, D.C. 20036
Tel: 202.429.1350
alentz@steptoe.com
*Counsel of Record
for Orlando Hall

November 19, 2020

INTRODUCTION AND SUMMARY
The United States District Court for the District of Columbia (“the
district court”) granted Mr. Hall’s request for injunctive relief based on
yesterday’s decision by the Court of Appeals for the District of Columbia
(“D.C. Circuit”)—which clarified the meaning of this Court’s denial of
emergency injunctive relief in Barr v. Lee, 140 S. Ct. 2590 (2020), and
therefore fundamentally changed the court’s view of the evidentiary
record it had reviewed it its initial consideration of Mr. Hall’s entitlement
to injunctive relief.

The district court explained that correcting its

erroneous interpretation of Lee “casts the evidence in a different light
such that Plaintiffs have established a significant possibility of showing
irreparable harm given Defendants’ violation of the FDCA.” A6. In trying
to overturn the district court in this Court and the Court of Appeals, the
Government has presented four arguments in support of its motion to
stay or vacate the district court’s injunction, each of which lacks merit.
The Government further argues that the FDCA does not apply to these
circumstances, and that Mr. Hall has no standing to bring the underlying
action. These, too, are unavailing.

COS-2

ARGUMENT
A.

The District Court Is Permitted to Reconsider
Injunctive Relief

First, the district court was correct that the mandate rule did not
bar it from reconsidering the evidence before it under the correct legal
standard and issuing a preliminary injunction. The D.C. Circuit, in
affirming the district court’s denial of a permanent injunction, relied on
the fact that “[t]he district court specifically found … that the evidence
in the record does not support Plaintiffs’ contention that they are likely
to suffer flash pulmonary edema while still conscious.” D.C. Circuit Op.
25. The D.C. Circuit therefore rested its holding on the district court’s
findings of fact regarding irreparable harm, which it reviewed for abuse
of discretion.
But as the district court explained, its “conclusion was premised,
in part, on its interpretation of Lee.” A5. The district court continued
that it was only because it believed Lee required an “improperly
elevated” showing that Plaintiffs “completely undermine” the testimony
of Dr. Crowns that it found that Plaintiffs had not made the necessary
showing for irreparable harm. A6. It also pointed to new evidence from
subsequent executions that, given the D.C. Circuit’s clarification that
COS-3

the district court had misread Lee, provided it with additional evidence
it did not believe it could consider. A6-7.
The district court is best positioned to weigh the facts based on the
applicable law. The D.C. Circuit’s opinion clarified the applicable law
in a manner that forced the district court to reevaluate the evidence
before it under the proper standard, which it has done. In other words,
given the intervening change in the law, the district court faced a
different application of facts to law than it previously had. See id. at 7
(“The Court of Appeals’ decision has fundamentally changed the law
upon which this court relied in making its factual finding.”). The D.C.
Circuit and this Court are accordingly reviewing a different injunction
based on a different analysis by the district court, and one which it was
thoroughly within its authority to make. Such a situation, where “there
has been a substantial change in the evidence or where an intervening
decision has changed the law,” Yankee Atomic Elec. Co. v. United States,
679 F.3d 1354, 1360 (Fed. Cir. 2012), is precisely when the mandate
rule gives way.
Moreover, the district court’s order falls well within its discretion
to revisit the propriety of prospective equitable relief in light of new

COS-4

circumstances. Plaintiffs obtained a judgment in their favor on their
FDCA claim—a judgment that was affirmed by the D.C. Circuit.
Although the D.C. Circuit also affirmed the district court’s denial of
injunctive relief, the mandate rule does not prevent Plaintiffs from
returning to the district court, judgment in hand, to ask the district
court to revisit its prospective assessment of the need for an injunction
in light of changed circumstances. Those circumstances include not
only the D.C. Circuit’s explication of the relevant legal standard, but
also the government’s inability before this or any court to point to any
harm from a brief delay associated with obtaining a prescription, Op. 9;
and the government’s bold assertion that it intends to defy the D.C.
Circuit’s decision—and thus violate the law—in conducting Plaintiffs’
executions. Even if the government disagrees with the D.C. Circuit’s
ruling on the FDCA, it may not disregard it by executing the Plaintiffs
in a manner that this D.C. Circuit has held exceeds its statutory
authority. Those circumstances establish that the district court was
within its discretion to revisit the need for equitable relief.
The mandate rule is limited to issues that were actually or
necessarily decided by the Court of Appeals, not those that could have

COS-5

been considered or decided. See, e.g., Bayala v. United States Dep't of
Homeland Sec., 246 F. Supp. 3d 16, 22 (D.D.C. 2017). Here, the D.C.
Circuit’s decision that the district court did not abuse its discretion in
its prior opinion did not foreclose the district court from reconsidering
the exercise of its discretion in light of that court’s clarification of the
law and other changed circumstances.
The Government fares no better attacking the district court’s
finding of irreparable harm. See Mot. at 7-10. It miscasts Mr. Hall’s
primary showing of harm as based on a “bare” statutory violation. Id. at
9. But that is not the harm that the district court credited. To the
contrary, the court made known its continuing awareness of the risk that
an “inmate injected with a high dose of pentobarbital will suffer flash
pulmonary edema while sensate.” A6. The court observed that “new
evidence” after “each execution” tended to “chip away at [Dr.] Crowns’
hypothesis” that the prisoner’s visible respiratory distress during an
execution might reflect agonal breathing instead of flash edema, which
was the district court’s stated reason for previously finding that Plaintiffs
had failed to “completely undermine” the Government’s experts. Id.
(quoting ECF No. 261 at 38). The district court explained that the recent

COS-6

evidence from William LeCroy’s execution and otherwise, considered in
tandem with the court’s corrected understanding of Lee, “undermines the
court’s basis” for finding no irreparable harm on the FDCA violation. A67. And even before that evidence, the district court was “concerned at the
possibility that inmates will suffer excruciating pain during their
executions.” ECF No. 261 at 36.
The court-credited risk of excruciating pain from the prisoner’s
conscious experience of flash edema amplifies its finding of irreparable
harm: “[W]ithout injunctive relief, Plaintiff will be executed with a drug
administered in violation of a federal law that ensures its safety and
efficacy for the intended purpose.” A8. The very purpose for which
Defendants have chosen to inject pentobarbital is to ensure a humane
execution with “the least amount of discomfort as possible.” AR 1, 3, 525526, 858, 871-872, 929, 931; Nov. 15, 2019 Deposition of Rick M. Winter
at 281:19-21 (ECF No. 45 Ex 1). That purpose justifies adherence to a
statute that ensures that the drug is “safe and effective for its intended
use,” FDA v. Brown & Williamson Tobacco Corp., 529 U.S. 120, 133
(2000), as the district court itself has recognized:
Where the government argues that a lethal injection drug is legally
and constitutionally permissible because it will ensure a “humane”
COS-7

death, it cannot then disclaim a responsibility to comply with
federal statutes enacted to ensure that the drugs operate
humanely. ECF Doc. 213 at 8.
The FDCA’s prescription requirement ensures the presence of
clinical judgment in determining whether and how a prescription-only
drug will be administered. United States v. Smith, 573 F.3d 639, 652-53
(8th Cir. 2009); United States v. Nazir, 211 F. Supp. 2d 1372, 1375 (S.D.
Fla. 2002). The FDCA’s prescription requirement “provides safeguards
against improper use of lethal-injection chemicals by assuring that
medical practitioners are adequately involved in the use of those
chemicals.” Ringo v. Lombardi, 706 F. Supp. 2d 952, 958 (W.D. Mo. 2010).
“[I]gnoring those safeguards, as Plaintiffs allege Defendants intend to do,
places Plaintiffs at risk.” Id.
The Government’s third and fourth arguments are likewise
unavailing. The Government claims that Plaintiffs would be unable to
secure a permanent injunction under the FDCA even if they do establish
irreparable harm, because an FDCA-based injunction is inappropriate in
light of the “balance of equities” and “the public interest”. Mot. at 10.
The Government’s argument finds no support. The Plaintiffs’ interest in
avoiding illegal executions that expose them to risks of grievous bodily

COS-8

pain and suffering outweighs the Government’s claimed interest in
carrying out death sentences in a “timely fashion”.
It is indisputable that the public has an important interest “in the
humane and constitutional application of [a] lethal injection statute.”
Nooner v. Norris, 2006 WL 8445125, at *4 (E.D. Ark. June 26, 2006). This
is especially true here, given Plaintiffs’ interest in avoiding “elevated
risks of severe and gratuitous pain from administration of pentobarbital
absent the requisite statutory safeguards . . . outweighs the government’s
interest in proceeding with the executions as scheduled without
obtaining the required prescriptions.” (Pillard, J. concurring in part and
dissenting in part, at 6-7.) Indeed, the district court emphasized that it
“is deeply concerned that the government intends to proceed with a
method of execution that this court and the Court of Appeals have found
violates federal law.” A9.
Although Defendants argue that “last-minute” stays of execution
should be treated as an exception, as the district court explained, the
timing in this instance could not be avoided, given that the D.C. Circuit
issued its decision and mandate only yesterday and the district court
promptly issued its order this morning. A10. In so doing, the district

COS-9

court also emphasized that it “would not issue a stay were it not
convinced that the Plaintiff has presented claims that had a substantial
possibility of succeeding.” (Id.) In light of these circumstances, including
Defendants’ intentions to proceed with executions in clear and proven
violation of law, as well as the court’s strong expressed belief that
Plaintiffs will succeed on their claim, the equities squarely favor
enjoining Plaintiff Hall’s execution.
These factors also far outweigh any assertion that finality must
come in this case right now. For seventeen years, Defendants did not
execute or seek to execute any death-sentenced prison-ers, including
Plaintiff Hall, who timely intervened in the litigation in 2007. Once
Defendants announced their intent to do so, Plaintiffs swiftly moved for
relief at all stages of this litigation, as Judge Pillard expressly recognized.
(See Pillard, J. concurring in part and dissenting in part, at 6 (“It is
difficult to see what more plaintiffs might have done to obtain earlier
rulings on the mer-its of their claims. Time that the government and the
courts have reasonably required cannot weigh against plaintiffs’
entitlement to a permanent injunction.”). A relatively short stay to allow
Plaintiff Hall to fully and fairly litigate the merits of his claims will not

COS-10

substantially injure either the public or Defendants where, as here,
Defendants’ newfound urgency emerged only after nearly two decades of
inaction. See Oscorio-Martinez, 893 F.3d at 179 (“[T]he fact that the
Government has not—until now—sought to remove SIJ applicants, much
less designees, undermines any urgency surrounding Petitioners’
removal.”).
Finally, Defendants’ argument that “more than 1000 inmates have
been executed by lethal injection” in violation of the FDCA (Br. 11-12) is
no answer at all.

The D.C. Circuit has now ruled definitively that

Defendants’ use of pentobarbital to carry out executions without
obtaining a valid medical prescription is unlawful. The Government’s
blatant disregard for that ruling and the statutory requirements to which
it must comply should not be countenanced. See League of Women Voters,
838 F.3d at 12 (“There is generally no public interest in the perpetuation
of unlawful agency action.”); Washington v. Reno, 35 F.3d 1093, 1103 (6th
Cir.

1994)

(noting

the

substantial

“public

interest

in

having

governmental agencies abide by the federal laws that govern their
existence and operations”).

COS-11

B.

The Unresolved Issues of the FDCA’s Applicability to
Lethal Injection Drugs and Cognizability under the
Administrative Procedure Act Do Not Justify
Summary Vacatur

The government also seeks vacatur based upon an issue on which
Mr. Hall and his fellow plaintiffs prevailed in the D.C. Circuit: that the
Federal Food, Drug and Cosmetics Act (FDCA) applies to drugs used for
lethal injection and that private parties may sue under the APA to
prevent violations of the APA. See In re Federal Bureau of Prisons
Execution Protocol Cases, No. 20-5329, 2020 WL 6750375, at *10 (D.C.
Cir. Nov. 18, 2020). As the court below noted, Applicants prevailed on
both of these issues due to established and longstanding D.C. Circuit
precedent. See id. (citing Cook v. FDA, 733 F.3d 1 (D.C. Cir. 2013);
Chaney v. Heckler, 718 F.2d 1174, 1179-1182 (D.C. Cir. 1983), rev’d on
other grounds, 470 U.S. 821 (1985)). The government’s Application
shows that the question of the proper interpretation of the FDCA is an
important issue of statutory interpretation that has implications
beyond the precise circumstances here—including implications for the
FDCA’s importation provisions, as well as (in the government’s view)
other means of execution. App’n at 5-6. Comprehensive statutory
schemes such as the FDCA are applied across myriad contexts. Any
COS-12

decision about the application of the FDCA that could have broad
consequences, including outside the lethal injection context, should not
be made absent a decision by this Court that plenary review is
warranted, and after the opportunity for that plenary review.
In the context of the FDCA’s application to drugs used for lethal
injection, the government’s Application again makes clear the
appropriateness of plenary Supreme Court review. While the D.C.
Circuit has long held that drugs used for lethal injection are subject to
the FDCA, see Cook 733 F.3d at 10-11, Applicants note that Judge Rao
took the opposite position below (and that the OLC did so earlier this
year), see App’n at 5-6, 19. And as the court below stated, this Court
“has never resolved ‘the thorny question of the FDA’s jurisdiction” over
the drugs used in lethal injections.’” Heckler v. Chaney, 470 U.S. 821,
828 (1985) (citation omitted). The Government recently made clear that
it believes that plenary review on this issue is warranted: “This Court
may wish to clarify that denial of injunctive relief on applicants’ FDCA
claim is appropriate . . . because there is no FDCA violation here at
all.” No. 20-A99 Op. 38. Mr. Hall agrees that this important and
unresolved issue is worthy of this Court’s attention, but certainly not in

COS-13

a per curiam decision reached without the benefit of this Court’s typical
determination regarding whether plenary review is warranted and then
the deliberate consideration such plenary review makes possible. The
Application thus demonstrates that the proper course is to uphold the
District Court’s injunction in order to permit the orderly litigation of
Mr. Hall’s claims, including the possibility of this Court’s full review.

Finally, the government asks this Court, without full briefing or
argument, to vacate the district court’s injunction on the sweeping
ground that private individuals lack a cause of action under the APA to
challenge a violation of the FDCA. App’n at 6-7, 19. Mr. Hall prevailed
on this issue, too, in the D.C. Circuit. Moreover, the government’s
argument would have broad implications outside the context of
challenges to a lethal injection protocol, and the D.C. Circuit was
disturbed enough by those arguments to request a supplemental letter
from the government explaining the reach of its contentions. See No.
20-5329, (D.C. Cir.), 11/17/2020 letter from U.S. But as this Court has
made clear, the bar is exceptionally high for determining that a
statutory scheme has precluded review, and the Court instead applies a

COS-14

“presumption favoring judicial review of administrative action.” Sackett
v. EPA, 566 U.S. 120, 128 (2012). At minimum, the Court should
consider whether plenary review is warranted before preemptively
holding, as the government urges, that no private party can ever bring
suit to challenge an action that violates the FDCA.

CONCLUSION
For the foregoing reasons, the Court should deny the emergency
motion to stay or immediately vacate the District Court’s injunction
barring the execution of Mr. Hall.

COS-15

Dated: November 19,
2020

Respectfully submitted,

/s/Robert C. Owen
*Robert C. Owen
Law Office of Robert C. Owen, LLC
53 West Jackson Blvd., Suite 1056
Chicago, IL 60604
(512) 577-8329 voice
robowenlaw@gmail.com
Amy Lentz
Steptoe & Johnson LLP
1300 Connecticut Avenue NW
Washington, D.C. 20036
Telephone: 202.429.1350
alentz@steptoe.com
*Counsel of Record for Orlando Hall

COS-16

